APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the District of Columbia
Circuit
(January 7, 2020) . . . . . . . . . . . . . App. 1
Appendix B Opinion in the Federal Mine Safety
and Health Review Commission
(August 22, 2018) . . . . . . . . . . . . App. 15
Appendix C O r d e r
Denying
Petition for
Discretionary Review by the Federal
Mine Safety and Health Review
Commission
(October 1, 2018) . . . . . . . . . . . . . App. 45

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 18-1296
[Filed January 7, 2020]
___________________________________
WESTERN OILFIELDS SUPPLY COMPANY,)
DOING BUSINESS AS RAIN FOR RENT,
)
)
PETITIONER,
)
)
v.
)
)
)
SECRETARY OF LABOR AND FEDERAL
MINE SAFETY AND HEALTH REVIEW
)
COMMISSION,
)
)
RESPONDENTS.
)
___________________________________ )
On Petition for Review of a Decision of the Federal
Mine Safety and Health Review Commission
Byron J. Walker argued the cause for petitioner.
With him on the briefs was Tim Boe.
Daniel Colbert, Attorney, U.S. Department of Labor,
argued the cause for respondents. With him on the
brief was Ali A. Beydoun, Counsel, Appellate
Litigation. John T. Sullivan, Attorney, Mine Safety
and Health Review Commission, and Andrew R.
Tardiff, Attorney, U.S. Department of Labor, entered
appearances.

App. 2
Before: GARLAND, Chief Judge, SRINIVASAN, Circuit
Judge, and EDWARDS, Senior Circuit Judge.
Opinion for the Court filed by Chief Judge
GARLAND.
GARLAND, Chief
Judge: Petitioner Western
Oilfields Supply Co., doing business as Rain for Rent,
mounts ambitious statutory and constitutional
challenges to a $116 fine under the Federal Mine
Safety and Health Act of 1977. We deny the petition
for review, taking the opportunity to clear up some
confusion about the rights the Act grants mine
operators.
I
Under the Mine Act, the Secretary of Labor is
responsible for setting health and safety standards to
govern the nation’s mines and mine operators. 30
U.S.C. §§ 803, 811. An “operator” is defined to include
“any owner . . . or other person who operates . . . a . . .
mine or any independent contractor performing
services . . . at such mine.” 30 U.S.C. § 802(d). The Act
requires the Secretary to make frequent inspections
each year, without advance notice, id. § 813(a), and
authorizes the Secretary to do so without a warrant, see
Donovan v. Dewey, 452 U.S. 594, 596 (1981). On the
ground, the Secretary’s responsibilities are carried out
by the Mine Safety and Health Administration
(MSHA). 29 U.S.C. § 557a. If an owner or operator
violates a health or safety standard, a MSHA inspector
may issue a citation. 30 U.S.C. § 814(a). The cited party
may then challenge that citation before an
administrative law judge (ALJ), see id. § 815(d); before
the Federal Mine Safety and Health Review

App. 3
Commission, in the Commission’s discretion, id.
§ 823(d)(2); and ultimately before this court (or the
court of appeals for the circuit in which the violation is
alleged to have occurred), id. § 816(a)(1).
Our cited party, Rain for Rent, rents pumps for use
in mines. Those pumps require maintenance, which it
also provides. On February 8, 2017, Rain for Rent
employee Jaime Tejeda drove a company truck to a
quarry operated by Lhoist North America of Arizona,
Inc., to perform maintenance on a pump that he had
previously installed. After parking the truck, Tejeda
went into the mine office to sign in for the day’s work.
At that same moment, a MSHA inspector was
waiting in the parking lot to meet mine representatives
for the second day of an 11-day routine inspection.
Seeing the truck rock back and forth, the inspector
suspected that Tejeda had neglected to set the parking
brake, a violation of a safety standard governing
unattended vehicles. See 30 C.F.R. § 56.14207. The
inspector walked over to the truck and tried to spot the
state of the parking brake through the window. When
that failed, he opened the door. As he suspected, the
parking brake was not set. When Tejeda returned to
his truck, he found the inspector photographing the
brake and, after a brief exchange, was presented with
a citation.
Rain for Rent unsuccessfully raised a storm of
objections to the citation in a hearing before an ALJ.
The Commission declined to exercise discretionary
review, and the ALJ’s decision therefore became the
final decision of the Commission. See 30 U.S.C.
§ 823(d)(1); Commission Notice (J.A. 123). Thereafter,
Rain for Rent petitioned for our review.

App. 4
II
In this court, Rain for Rent has raised only three
objections to the Commission’s decision.1 We consider
them below, “review[ing] the Commission’s legal
conclusions de novo, and its findings of fact for
substantial evidence.” Sec’y of Labor v. Keystone Coal
Mining Corp., 151 F.3d 1096, 1099 (D.C. Cir. 1998)
(citation omitted).
A
First, Rain for Rent maintains that its employee
was not within the jurisdiction of the Mine Act at the
moment the citation was issued.2 The Act provides that
“each operator of [a] mine . . . shall be subject to the
provisions of” the Act, 30 U.S.C. § 803, and defines an
“operator” to include “any independent contractor
performing services or construction at such mine,” id.
§ 802(d). Rain for Rent “does not contest that it was an
independent contractor for purposes of this
proceeding,” Pet’r Br. 41, and stipulated before the ALJ
1

In particular, Rain for Rent no longer argues that the parking
lot was not part of the “mine” within the meaning of the Mine Act,
see Sec’y of Labor v. Rain for Rent, 40 FMSHRC 1267, 1270-72
(2018) (ALJ), that the truck was not “unattended” while Tejeda
was signing in, id. at 1280, or that the violation was neither as
negligent nor as grave as the inspector determined, id. at 1280-81.

2

Or the moment the violation came into being, or the moment
the inspection took place -- Rain for Rent is not consistent on this
point. Compare Pet’r Br. 41 (measuring jurisdiction “at the time
the MSHA inspector cited the alleged violation”), with id. at 42
(measuring jurisdiction “at the time an alleged violation occurs”),
and id. at 12 (measuring jurisdiction “[a]t the time the MSHA
inspector observed the subject of the Citation”). Those distinctions
do not matter here.

App. 5
that it had “provided services” to Lhoist, see Rain for
Rent, 40 FMSHRC at 1268. But it insists that it was
not “performing services” because Tejeda had not yet
signed in with the mine office for the day.
We have not had occasion to address what the
words “performing services” mean in isolation,3 and the
Secretary’s regulations only define the term
“independent contractor,” not the phrase “independent
contractor performing services.” See 30 C.F.R. § 45.2(c).
Rain for Rent maintains that, “[b]y its tense,
‘performing services’ . . . denotes present, ongoing
work.” Pet’r Br. 42. Assuming without deciding that
Rain for Rent is correct about this, the undisputed
record nonetheless shows that Rain for Rent was
performing ongoing services for the mine operator,
Lhoist. Under the Mine Act, the requirement is that
the contractor -- not the particular employee on whom
3

We disagree with the Secretary’s suggestion that our precedent
resolves this case. The Secretary relies in part on a snippet from
DQ Fire &Explosion Consultants, Inc. v. Secretary of Labor, in
which we affirmed a citation despite the petitioner’s contention
“that it is not an operator under the Mine Act because, on the days
in question, it was not performing the type of ‘services’ covered by
the statute.” 632 F. App’x 622, 624 (D.C. Cir. 2015). But that
petitioner had not made -- and we were not purporting to respond
to -- a temporal argument. Instead, the question was whether the
services at issue were sufficiently related to mining. The Secretary
also relies on Otis Elevator Co. v. Secretary of Labor, in which we
rejected an argument that some independent contractors who
perform services nevertheless are not operators because they do
not perform the right kind of services. 921 F.2d 1285, 1289-91
(D.C. Cir. 1990). Again, we did not purport to address the
independent meaning (if any) of “performing services,” or else we
would have had no reason to wonder whether we could grant
deference to regulations that did not define the term. Id. at 1288
(citing 30 C.F.R. § 45.2(c)).

App. 6
the citation is served -- be engaged in work at the mine.
And Rain for Rent was.
The ALJ found as follows:
Prior to the inspection at issue, Lhoist
contracted with Rain for Rent . . . to pump an
accumulation of rainwater out of the quarry pit.
Rain for Rent employee Jaime Tejeda . . . visited
the mine site several times to install the pump,
perform maintenance and repairs, and replace
the original pump with a larger model.
Rain for Rent, 40 FMSHRC at 1268 (citation omitted).
Indeed, Tejeda had previously “[driven] the cited truck
onto mine property on multiple occasions” to perform
the “same services” he was there to perform on the day
of the citation. Id. at 1273. And Rain for Rent’s rented
pump (although still in need of repair) was on-site
providing the contractor’s continuing service when the
events at issue here unfolded. There is therefore no
question that, as the ALJ found, “Rain for Rent was
performing pumping services for Lhoist” at the time of
the inspection. Id. at 1274.
Even if we were to narrow our focus to the
individual employee, we would come to the same
conclusion. Rain for Rent hangs everything on the fact
that Tejeda had not yet signed in: It no longer denies,
as it did before the ALJ, that Tejeda was already
within the boundaries of a “mine” when he parked the
truck. See id. at 1270-72. Nor does it go so far as to
argue that Mine Act jurisdiction did not attach until
Tejeda actually touched the pump. See Recording of
Oral Arg. at 19:40-19:45. Yet, it offers nothing that
would distinguish between the walk from truck to office

App. 7
and the walk from office to pump. During each trip,
Tejeda was on-site to execute his responsibilities under
a contract for services. As the ALJ put it, “Tejeda’s
work on behalf of Rain for Rent entailed entering the
Plant office to sign in and make his presence known on
the site.” 40 FMSHRC at 1274 (emphasis added).
B
We turn next to Rain for Rent’s argument that the
inspection violated section 103(f) of the Mine Act. That
section provides that “a representative of the operator
. . . shall be given an opportunity to accompany the
Secretary or his authorized representative during the
physical inspection of any coal or other mine . . . for the
purpose of aiding such inspection and to participate in
pre- or post-inspection conferences held at the mine.”
30 U.S.C. § 813(f). Because Tejeda missed the first few
minutes of the inspection of his truck, Rain for Rent
argues, this “walkaround” right was violated. And
while Rain for Rent maintains that the violation,
standing alone, merits automatic vacatur of the
citation, it also argues that the violation prejudiced its
defense to the citation and warrants vacatur (or at
least suppression of the evidence) on that ground as
well. In particular, Petitioner says, it missed out on its
right to refuse the inspection and mount its
jurisdictional defense -- its claim about the meaning of
“performing services” -- before the search began.
1. Like the ALJ, we do not see a violation. As
section 103(f) states, the walkaround right is extended
“for the purpose of aiding [the] inspection.” Id. In other
words, the provision gives an operator a chance to
provide information that might be mitigating or
material -- to argue, for instance, that the brake was in

App. 8
fact set, or that the inspector had misunderstood how
it worked. See Big Ridge, Inc. v. Sec’y of Labor, 36
FMSHRC 1677, 1735 (2014) (ALJ) (explaining that the
representative’s role is to “point out hazards, offer
justifications, proffer mitigating circumstances, and
collect evidence that may support a perspective
contrary to the inspector’s view at hearing”). But Rain
for Rent was not denied that chance because Tejeda
returned while the condition of the brake was still
plain to see and had an opportunity to say whatever he
wanted to the inspector. Rain for Rent points to
nothing that it would have done differently if its
employee had been present before the door was
opened -- other than refuse the inspection entirely.
The problem for Rain for Rent is that the statute
does not create such a “right to refuse.” Certainly no
such right appears on the face of the Act. To the
contrary, section 103(a) of the Act grants the Secretary
a “right of entry to, upon, or through any coal or other
mine.” 30 U.S.C. § 813(a). Accordingly, as we said in
Donovan v. Carolina Stalite Co., “[r]efusal to admit an
authorized representative into a facility for purposes of
conducting an inspection pursuant to § 103(a) is a
violation of the Act.” 734 F.2d 1547, 1549 n.2 (D.C. Cir.
1984). Moreover, the Act provides that “no advance
notice of an inspection shall be provided to any person”
(with exceptions not relevant here). 30 U.S.C. § 813(a).
It is hard to understand what good that provision
would do if any operator could delay a surprise
inspection by blocking it without penalty.
In maintaining that a right to refuse nonetheless
exists, Rain for Rent points to section 108 of the Act,
which provides: “The Secretary may institute a civil

App. 9
action for relief . . . whenever [a mine] operator or his
agent . . . refuses to admit [the Secretary’s]
representatives to the . . . mine.” Id. § 818(a)(1). Rain
for Rent also highlights language from our decision in
Carolina Stalite. There, we noted that section 108
proceedings provide a mine operator with “an adequate
forum . . . to show that a specific search [was] outside
the federal regulatory authority or to seek . . . an order
accommodating any unusual privacy interests that [it]
might have.”Carolina Stalite, 734 F.2d at 1556-57
(quoting Dewey, 452 U.S. at 604-05). We described this
as a “right to force MSHA to go to court to gain entry to
[a] plant.” Id. at 1557. But in pressing these quotations,
Rain for Rent misunderstands both Carolina Stalite
and the Act.
What we said in Carolina Stalite was what the
Supreme Court had earlier explained in Donovan v.
Dewey: section 108 limits the Secretary’s remedies
when a mine operator refuses entry in contravention of
the Act. “The Act prohibits forcible entries, and instead
requires the Secretary, when refused entry onto a
mining facility, to file a civil action in federal court to
obtain an injunction against future refusals.” Dewey,
452 U.S. at 604 (emphasis added). In other words, if an
operator refuses to permit an inspection, the operator
has a “right” to require MSHA to go to court to gain
entry because Congress did not empower the agency to
force its way into the property. See Rain for Rent, 40
FMSHRC at 1276 (rejecting the argument that the
Act’s “prohibition of forcible entry is . . . necessarily the
same as [a] granted right to deny inspection”). But
section 108 has no application in a case like this one,
where there never was such a refusal.

App. 10
2. Even if there had been a violation of Rain for
Rent’s walkaround rights, we would reject the
petitioner’s contention that the violation warrants
vacatur or suppression. The statute does not expressly
state the consequences of violating section 103(f)’s
walkaround right, except to say, somewhat cryptically,
that “[c]ompliance with this subsection shall not be a
jurisdictional prerequisite to the enforcement of any
provision of this chapter.” 30 U.S.C. § 813(f). Neither
party has offered a persuasive account of what this
language means.4
Even in the absence of such a proviso, however, we
have interpreted a substantially identical walkaround
right in the Occupational Safety and Health Act to
require that an employer show “prejudice it suffered as
a result of not being represented during the inspection,
a requirement imposed by every circuit that has
considered the issue.” Frank Lill & Son, Inc. v. Sec’y of
Labor, 362 F.3d 840, 846 (D.C. Cir. 2004) (internal
quotation marks omitted). Whatever the “not a
jurisdictional prerequisite to enforcement” language
means, it must at least mean that a harmless violation
does not preclude enforcement. Otherwise, compliance
with section 103(f) would effectively be an absolute
prerequisite, whether denominated as “jurisdictional”
or something else.
And as we have noted, Rain for Rent suggests
nothing that it would have done differently if its
employee had been present the moment the inspector

4

The Commission’s last encounter with the question did not
produce a majority opinion. See Sec’y of Labor v. SCP Invs., LLC,
31 FMSHRC 821, 821-22 (2009).

App. 11
opened the truck’s door -- nothing, that is, other than
refuse entry based on a claim that the inspector
exceeded his jurisdiction under the Mine Act. See Pet’r
Br. 39. Not only is that defense without merit, see
supra Part II.A, but witnessing the full inspection
would not have improved it. Nor was Rain for Rent’s
ability to present it to the ALJ or this court impeded in
any way.
C
Finally, Rain for Rent maintains that the
warrantless inspection of its truck violated the Fourth
Amendment because the petitioner was not afforded an
opportunity for precompliance review. In support, it
cites the Supreme Court’s opinion in Dewey, which
upheld the Mine Act against a Fourth Amendment
challenge. But the Court did not hold there, nor has it
ever held, that precompliance review is necessary for
the constitutionality of warrantless administrative
searches in a closely regulated industry like mining.5
Dewey states the test for the constitutionality of a
warrantless inspection program in such an industry:
there must be a “substantial federal interest” that

5

A “closely regulated” industry is one with “such a history of
government oversight that no reasonable expectation of privacy . . .
could exist for a proprietor over the stock of such an enterprise.”
City of Los Angeles v. Patel, 135 S. Ct. 2443, 2455 (2015) (quoting
Marshall v. Barlow’s, Inc., 436 U.S. 307, 313 (1978)). The Court
has “identified” mining as one of the few such industries. Id. (citing
Dewey, 452 U.S. 594); see also Dewey, 452 U.S. at 603 (finding that
“the regulation of mines [that the Act] imposes is sufficiently
pervasive and defined that the owner of such a facility cannot help
but be aware that he will be subject to effective inspection”)
(internal quotation marks omitted).

App. 12
informs the regulatory scheme; Congress must have
reasonably determined “that a system of warrantless
inspections was necessary if the law is to be properly
enforced and inspection made effective”; and the
inspection program, “in terms of the certainty and
regularity of its application,” must “provide[ ] a
constitutionally adequate substitute for a warrant.”
Dewey, 452 U.S. at 602-03; accord City of Los Angeles
v. Patel, 135 S. Ct. 2443, 2456 (2015); New York v.
Burger, 482 U.S. 691, 702-03 (1987). Dewey held that
the Mine Act satisfied all of the elements of that test.
There is no requirement of precompliance review in
this framework,6 nor is there one in the Mine Act itself.
Rain for Rent nevertheless maintains that Dewey’s
requirement of “certainty and regularity” implies a
requirement of precompliance review. But Dewey
explained that the Mine Act meets the “certainty and
regularity” requirement because: (1) it “requires
inspection of all mines and specifically defines the
frequency of inspection,” and (2) “the [health and
safety] standards with which a mine operator is
required to comply are all specifically set forth in the
Act or in Title 30 of the Code of Federal Regulations.”
452 U.S. at 603-04 (emphasis omitted). Again, the
Court did not mention a precompliance review
requirement.
Rain for Rent’s argument to the contrary focuses on
the paragraph that follows Dewey’s discussion of the
6

Accord Zadeh v. Robinson, 928 F.3d 457, 464 (5th Cir. 2019)
(“No opportunity for precompliance review is needed for
administrative searches of [closely regulated] industries.”); Liberty
Coins, LLC v. Goodman, 880 F.3d 274, 280-81 (6th Cir. 2018)
(same).

App. 13
“certainty and regularity” requirement. There, the
Court noted:
[T]he [Mine] Act provides a specific mechanism
for accommodating any special privacy concerns
that a specific operator might have. The Act
prohibits forcible entries, and instead requires
the Secretary, when refused entry onto a mining
facility, to file a civil action . . . to obtain an
injunction against future refusals.
Dewey, 452 U.S. at 604 (citing 30 U.S.C. § 818(a)).
Dewey is, frankly, ambiguous as to whether this
discussion of section 108 is part of its Fourth
Amendment analysis, or simply a description of an
additional -- but not constitutionally required -protection afforded by the Mine Act. Subsequent
Supreme Court cases do not include anything like it in
their descriptions of what is necessary to provide a
constitutionally adequate substitute for a warrant in a
closely regulated industry.7

7

In Patel, the Court indicated that “an opportunity for
precompliance review” is required for the constitutionality of
searches under “general administrative search doctrine,” but not
for searches under the “more relaxed” test applicable to “closely
regulated industries” like mining. 135 S. Ct. at 2454. In Burger,
the Court explained that the “certainty and regularity”
requirement means that a statutory scheme “must advise the
owner of the commercial premises that the search is being made
pursuant to the law and has a properly defined scope, and it must
limit the discretion of the inspecting officers.” 482 U.S. at 703.
Burger held that a warrantless search of an automobile junkyard
under a New York regulatory scheme satisfied those requirements.
Id. at 711-12. It did so without mentioning either a precompliance
review requirement or a provision like section 108 of the Mine Act.
Indeed, the New York statute did not contain any such

App. 14
But the relevance of section 108 to Dewey’s
constitutional analysis is not something we need divine
in order to resolve the challenge presently before us. As
we explained in Part II.B, section 108 does not create
a freestanding right of refusal; it creates only a
prohibition against forcible entry when entry is
refused. Section 108 has no application here because
the Secretary’s inspector was not refused entry. And
because no feature of the statute that Dewey upheld
against constitutional attack was violated, Rain for
Rent’s challenge must fail.8
III
For the foregoing reasons, we conclude that Rain for
Rent’s statutory and constitutional challenges lack
merit. Accordingly, its petition for review is
Denied.
[Certificate of Service Omitted in Printing of this
Appendix]

requirement or provision. See Burger, 482 U.S. at 708-11
(describing the statute’s relevant features in detail).
8

Rain for Rent also suggests that Dewey’s approval of the Mine
Act’s warrantless inspections was predicated, in part, on the
protections provided by the Act’s walkaround provision, 30 U.S.C.
§ 813(f), which we discussed in Part II.B. But that provision is not
mentioned anywhere in Dewey or any of the subsequent Supreme
Court opinions discussed above.

App. 15

APPENDIX B
FEDERAL MINE SAFETY AND HEALTH
REVIEW COMMISSION
Docket No. WEST 2017-0377
A.C. No. 04-00156-434274 VVG
[Filed August 22, 2018]
___________________________________
SECRETARY OF LABOR MINE SAFETY
)
AND HEALTH ADMINISTRATION (MSHA) )
)
Petitioner,
)
)
v.
)
)
RAIN FOR RENT,
)
)
Respondent.
)
___________________________________ )
DECISION
Appearances:
Isabella M. Finneman, Esq., Joshua Love, Esq.,
U.S. Department of Labor, Office of the
Solicitor, San Francisco, California, for
Petitioner;
Byron Walker, Esq., Jack Easterly, Esq., Tim
Boe, Esq., Rose Law Firm, Little Rock,
Arkansas, for Respondent.
Before: Judge Simonton

App. 16
I. INTRODUCTION
This simplified proceeding is before me upon the
Secretary of Labor’s petition for assessment for a civil
penalty pursuant to Section 105(d) of the Federal Mine
Safety and Health Act of 1977, 30 U.S.C. § 815(d) (“the
Act”).1 The docket involves a single citation issued
pursuant to Section 104(a) of the Act with a proposed
penalty of $116.00. The parties presented testimony
and evidence regarding the citation at a hearing held
in San Francisco, California, on May 15, 2018. Based
upon the parties’ stipulations, my review of the entire
record, my observation of the demeanor of the
witnesses, and consideration of the parties’ legal
arguments, I make the following findings and order.
II. STIPULATIONS OF FACT
The parties jointly filed the following stipulations of
fact:
1.

Respondent Rain for Rent is a contractor that
provides temporary liquid handling solutions,
including pumps, tanks, filtration and spill
containment to different industries, including
mine operators in the United States, Canada,
and United Kingdom.

2.

Respondent provided services to Lhoist North
America of Arizona, Inc., which operates the
Natividad Plant, MSHA I.D. No. 04-00156, in
Monterey County, California.

1

In this decision, the joint stipulations, transcript, the Secretary’s
exhibits, and Respondent’s exhibits are abbreviated as “Jt. Stip.,”
“Tr.,” “Ex. S-#,” and “Ex. R-#,” respectively.

App. 17
3.

This matter is subject to the jurisdiction of the
Commission and the assigned judge.

4.

The subject citation was properly served by a
duly authorized representative on the date and
place stated therein, and may be admitted into
evidence for the purpose of establishing its
issuance but not for the truthfulness or
relevance of any statements asserted therein.

5.

Respondent demonstrated good faith in abating
the conditions noted in the subject citation.

6.

The Rain for Rent company truck referenced in
Citation No. 8785566 was parked on flat, level
ground in the parking area of the mine office.

7.

The MSHA inspector observed the alleged
violation referenced in Citation No. 8785566
upon opening the truck door.

8.

The MSHA inspector did not communicate with
Rain for Rent or its representative before
opening the door referenced in Citation No.
8785566.

9.

The truck referenced in Citation No. 8785566 is
marked with the Rain for Rent logo and related
information on its exterior.

10.

Respondent and its representatives cooperated
with the Secretary during the inspection that
resulted in the issuance of the subject citation.

11.

Respondent demonstrated good faith in
addressing the conditions noted in the subject
citation.

App. 18
12.

The alleged violation in Citation No. 8785566
was terminated immediately after its issuance.
III. FINDINGS OF FACT

The Natividad Plant is a limestone quarry and mill
located in Monterey County, California, and operated
by Lhoist North America of Arizona, Inc. (“Lhoist”).
Prior to the inspection at issue, Lhoist contracted with
Rain for Rent (“Respondent”) to pump an accumulation
of rainwater out of the quarry pit. Jt. Stip. #2; Ex. S-6;
Tr. 42. Rain for Rent employee Jaime Tejeda (“Tejeda”)
visited the mine site several times to install the pump,
perform maintenance and repairs, and replace the
original pump with a larger model. Ex. S-7; Tr. 42-43.
Tejeda signed in at the mine office on behalf of Rain for
Rent upon each visit. Id.
On February 8, 2018, MSHA Inspector Nicholas
Basich arrived at the Natividad Plant to begin the
second day of a routine 11-day inspection.2 Tr. 23. He
entered the mine site by turning off of Old Stage Road
into the mine driveway and proceeded approximately
400 feet to the mine office. Ex. S-2, S-3; Tr. 25. Basich
checked in at the office and arranged to meet a Lhoist
representative in the office parking lot to begin the
inspection. Tr. 29-30. While waiting, Basich observed
Tejeda drive a flatbed truck into the parking lot, park,
and enter the mine office. Tr. 30-31. The truck had a

2

Inspector Basich has worked as an MSHA Inspector for five
years. Tr. 22. He worked in the heavy construction industry for 42
years prior to joining MSHA. Id. He has completed 21 weeks of
MSHA training at Beckley Academy and has completed on the job
training, special investigation training, and mobile equipment
training. Tr. 23.

App. 19
“Rain for Rent” insignia on its door and a Department
of Transportation Number, and Basich concluded that
Tejeda intended to sign in and enter the quarry site. Jt.
Stip. #9; Ex. S-5; Tr. 33-35. Basich noticed the truck
rock back and forth once parked. which led him to
believe that Tejeda did not set the parking brake. Id.
Basich approached the truck and, unable to see the
brake through the truck’s windows, opened the driver
side door for a better look. Tr. 32-33. He confirmed that
the parking brake was not set and began to take
photographs of the condition when Tejeda exited the
office and returned to the vehicle. Tr. 32-33, 35. Basich
identified himself to Tejeda as a MSHA inspector,
stated that he was conducting an inspection of the
truck based upon his belief that the parking brake was
not set, and stated that the parking brake was in fact
not set. Tr. 35-36. He issued Citation No. 8785566
alleging a violation of 30 C.F.R. § 56.14207:
The Ford F-55O Flatbed truck (Rain for Rent
company truck), in a parked an unattended
attended [sic] condition adjacent to the mine
office at the mine, does not have the parking
brake set. The truck is parked on flat, level
ground with the transmission in park. The
practice of not setting the parking brake when
leaving a truck or mobile equipment unattended
on a mine site exposes miners to the unplanned
and unwarned movement of the vehicle/mobile
equipment. No lost time injuries would be
expected from the truck parked in this locate
and in this condition. If the truck were parked
on a slope or grade, serious potentially fatal
crushing type injuries would be expected.

App. 20
Ex. S-4. Inspector Basich designated the citation
non-S&S, unlikely to result in lost workdays, and the
result of Rain for Rent’s moderate negligence. Id. The
Secretary assessed a penalty of $116.00. Rain for Rent
quickly terminated the citation. Jt. Stip. #5, 11; Tr. 35,
95.
IV. DISPOSITION
Rain for Rent denies the validity of the citation on
multiple grounds.3 Respondent contends that MSHA
lacked jurisdiction over the parking lot and its truck. It
argues that the parking lot is not a “mine” as defined
by the Act. Respondent’s Post-Hearing Brief (“Resp.
Br.”) at 8. It further argues that Tejeda was not
“performing services” at the mine at the time the
citation was issued and was therefore not an “operator’‘
as defined by the Act. Id. at 5. Rain for Rent also
contends that Inspector Basich violated its Fourth
Amendment rights when he entered the truck while
Tejeda was away from the vehicle in contravention of
the regular and certain inspection procedures required

3

As a preliminary matter the court denies Respondent’s request
for a new hearing based on the Supreme Court’s recent decision in
Lucia v. Securities and Exchange Commission, 135 S.Ct. 2044
(2018). See Respondent’s Post-Hearing Brief, at 21, n. 17. The full
Commission unanimously ratified the appointment of its ALJs on
April 3, 2018, more than a month prior to this bearing. Federal
Mine Safety and Health Review Commission, Commission
Ratification Notice, http://www.fmshrc.gov/about/news/commission
-ratification-notice (Apr. 3, 2018). Thus, this court was
constitutionally appointed as required by Lucia and Respondent is
not entitled to a new hearing. See Lucia, 135 S. Ct. at 2050; Free
Enter. Fund v. Pub. Co. Accounting Oversight Bd., 561 U.S. 477,
512-13 (2010); see also Jones Bros. Inc. v. FMSHRC, No. 17-3483,
slid op. at 11 (6th Cir. July 31, 2018).

App. 21
by the Mine Act. Resp. Br. at 14; Respondent’s Reply to
Secretary’s Post-Hearing Brief (“Resp. Rep.”) at 3. Rain
for Rent also argues Basich’s denial of its walkaround
rights pursuant to § 103(f) of the Mine Act resulted in
actual prejudice and justifies vacatur of the citation in
and of itself. Resp. Br. at 17. Finally, Respondent
contests the fact of violation as well as the negligence
and gravity designations in the citation. Resp. Br. at
12; Resp. Rep. at 2.
The Secretary contends that MSHA properly
asserted jurisdiction over the lot and the truck.
Secretary’s Post-Hearing Brief (“Sec’y Br.”) at 6. The
Secretary further contends that the search of the truck
was reasonable because § 103(a) grants MSHA
Inspectors the right to enter and inspect the truck
without providing advance notice. Id. at 4. The
Secretary also argues that Rain for Rent was not
denied its walkaround rights because Tejeda returned
to the truck and spoke with Inspector Basich while he
was still conducting the inspection. Id.
For the reasons set forth below, I affirm the citation
as written.
A. Jurisdiction
The Office and Parking Lot
The Mine Act provides that “[e]ach coal or other
mine . . . and each operator of such mine . . . shall be
subject to the provisions of this Act.” 30 U.S.C. § 803.
Thus, in order to prove that MSHA had jurisdiction to
issue the subject citation in this case, the Secretary
must prove that the violation occurred at a “mine” and
that the citation was issued to an “operator.”

App. 22
The Act defines a “coal or other mine” as
(A) an area of land from which minerals are
extracted in nonliquid form . . . (B) private
ways and roads appurtenant to such area,
and (C) lands, excavations, underground
passageways, shafts, slopes, tunnels and
workings, structures, facilities, equipment,
machines, tools, or other property including
impoundments, retention dams, and tailings
ponds, on the surface or underground, used
in, or to be used in, or resulting from, the
work of extracting such minerals from their
natural deposits in nonliquid form, . . . or
used in, or to be used in, the milling of such
minerals, or the work of preparing coal or
other minerals . . .
30 U.S.C. § 802(h)(1). The Secretary has interpreted
subsection (A) of this definition to refer to “extraction
areas and everything within their boundaries.” See
Sec’y of Labor v. Nat’l Cement Co. of Cal., 513 F.3d 788,
793 (D.C. Cir. July 2009). He interprets subsection (B)
to include roads but not the vehicles on them, while (C)
reaches equipment including vehicles, tools, and other
property used in mining but not located within an
extraction area. Id. at 795. This interpretation has
been accepted by the D.C. Circuit. Id. (holding that the
Secretary’s interpretation of subsection B is reasonable
as part of the Mine Act’s overall enforcement scheme).
The Commission has applied subsection (C) to find that
jurisdiction existed over a warehouse located one mile
from the closest extraction site because it was a
“facilit[y] . . . used in mining.” Jim Walter Ru., Inc., 22
FMSHRC 21 (Jan. 2000). The Commission has also

App. 23
affirmed MSHA’s jurisdiction over various
“equipment . . . used in mining,” including trucks and
conveyors used in the screening process but located on
a public road, State of Alaska, Dep‘t of Transp., 36
FMSHRC 2642, 2647 (Oct. 2014); a dragline being
assembled at a site one mile from where coal was being
mined, Justis Supply & Machine Shop, 22 FMSHRC
1292, 2000 WL 1682492 (Nov. 2000); and a garage
adjacent to an asphalt plant and used for mining work,
W.J. Bokus Industries, Inc., 16 FMSHRC 704 (Apr.
1994). The recent Sixth Circuit case Maxxim Rebuild
suggests that application of subsection (C) may be
limited to locations in or adjacent to a working mine.
Maxxim Rebuild v. FMSHRC, 848 F.3d 737, 740 (6th
Cir. 2017).
The legislative history of the Act indicates that the
intention of Congress was that “what is considered to
be a mine and to be regulated under this Act be given
the broadest possibl[e] interpretation, and it is the
intent of this Committee that doubts be resolved in
favor of inclusion of a facility within the coverage of the
Act.” S. Rep. No. 95-181, at 14 (1977). Accordingly, the
Commission has construed Section 3(h) (1) broadly in
favor of Mine Act coverage. See, e.g., State of Alaska,
Dep’t of Transp., 36 FMSHRC 2642, 2647 (Oct. 2014);
Calmat Co. of Ariz., 27 FMSHRC 617, 622, 624 (Sept.
2005).
I find that the Plant office and the parking lot were
“facilit[ies] used in the work of” mining in accordance
with subsection (C). The Natividad Plant is a working
mine. The office and parking lot are located on mine
property and adjacent to the Plant’s active extraction
sites. Ex. S-1, S-2; Tr. 26. Lhoist directed mining

App. 24
operations out of the office and kept paperwork and
examination records there. Tr. 30. The parking lot
serviced the office and was adjacent to the Plant’s
primary plant crusher. Tr. 30, 64-65, 79. Miners,
contractors, and vendors parked their professional
vehicles in the lot to sign in and receive authorization
to enter the mine site to perform work. Tr. 30, 79. The
office and parking lot are thus geographically and
functionally related to the mining process at Natividad
Plant and are subject to MSHA jurisdiction under the
Act.
Respondent contends that the Secretary’s assertion
of jurisdiction over the office and parking lot is
inconsistent with the structure and purpose of
subsections (B) and (C) because the Secretary has
taken conflicting stances on his inspection policy. Resp.
Br. at 8. It contends that Inspector Basich put forth
two novel interpretations of MSHA’s jurisdiction over
parking lots at hearing to improperly include the lot at
issue. See Resp. Br. at 9. Respondent contends that
these interpretations, which it nicknamed the “doing
business test” and “lease test,” would lead to absurd
results that would permit MSHA to assert jurisdiction
over miners’ vehicles in parking lots located away from
the mine or in lots adjacent to but not affiliated with
the mine. Id. at 9-10. Rain for Rent similarly claims
that the Secretary’s interpretation necessarily and
inappropriately extends his jurisdiction over any

App. 25
private vehicles located in the parking lot.4 Resp. Br. at
12.
Respondent’s hypothetical scenarios contain
material facts that are not present in the instant case
and are therefore of minimal relevance to its
disposition. See Nat’l Cement Co., 513 F.3d 788, 796
(D.C. Cir. July 2009) (“The theoretical possibility that
an agency might someday abuse its authority is of
limited relevance in determining whether the agency’s
interpretation of a congressional delegation is
reasonable”). Here the Secretary reasonably applied
the plain language of subsection (C) to assert
jurisdiction over the parking lot in question. The
parking lot is on Natividad Plant property, adjacent to
active extraction sites, and used for mine-related
purposes. Likewise, the Secretary did not assert
jurisdiction over any private vehicles in this case, and
Inspector Basich took reasonable steps to demonstrate
that it was not his intent to do so. He testified that the
truck was clearly labeled as a Rain for Rent vehicle,
and Tejeda drove it on behalf of Rain for Rent to the
parking lot with the intent to perform professional

4

Respondent notes that its inability to conduct discovery in this
matter prevented it from determining where Inspector Basich
discerned MSHA policy prohibiting the inspection of personal
vehicles. Resp. Br. at 11, n. 6. The court acknowledges that
simplified proceedings limited discovery as required by 29 C.F.R.
§ 2700.100(b)(5). This does not amount to a deprivation of due
process rights that Respondent alleges. The legal questions
presented in this case and my findings are in no way dependent on
Respondent’s inability to depose Inspector Basich. Respondent had
the opportunity to ask the Inspector about MSHA policy at
hearing, and indeed did so. Tr. 91.

App. 26
services at the mine. Jt. Stip. #9; Ex. S-5, S-7; Tr.
33-35.
The parking lot is a facility used in the mining
process and is subject to the jurisdiction of the Act.
Rain for Rent‘s Operator Status
Rain for Rent also argues that it was not an
“operator” subject to the Act because Tejeda was not
“performing services” at the mine when the citation
issued. Resp. Br. at 5. Section 3(d) defines an
“operator” as “any owner, lessee, or other person who
operates, controls, or supervises a coal or other mine or
any independent contractor performing services or
construction at such mine.” 30 U.S.C. § 802(d). The
Commission has held that the independent contractor
language of Section 3(d) “covers any independent
contractor performing more than de minimis services
at a mine.”5 Musser Eng’g, Inc., 32 FMSHRC 1257,

5

Previous Commission cases applied a two-prong test addressing
the independent contractor’s “proximity to the extraction process
and the extent of its presence at the mine.” Otis Elevator Co., 11
FMSHRC 1896, 1902 (Oct. 1989); see also Old Dominion Power Co.
v. Donovan, 772 P.2d 92 (4th Cir.1985). However, the D.C. Circuit
explicitly rejected this approach in its review of the Otis Elevator
decision, and no Circuit Court has applied the test since. Otis
Elevator Co. v. Secretary of Labor, 921 F.2d 1285, 1290 (D.C. Cir.
1990) (“Section 3(d) does not extend only to certain “independent
contractor[s] performing services . . . at [a] mine”; by its terms, it
extends to “any independent contractor performing services . . . at
[a] mine.”); see also N. Ill. Steel Supply Co. v. Sec’y of Labor, 294
F.3d 844, 848-49 (7th Cir. 2002); Joy Techs., Inc. v. Sec’y of Labor,
99 F.3d 991, 999-1000 (10th Cir. 1996). Commissioner Cohen in
Musser stated that a test based on the text of the statute is more
appropriate and that the Commission’s older precedent “merits
reexamination.” Musser, 32 FMSHRC at 1267 n.10.

App. 27
1267-1270, 1276-79 (Oct 2010) (Company that prepared
permit application and maps contained therein for a
mine was an independent contractor “performing
services” at the mine).
The Commission has interpreted the language of
§ 3(d) to include a wide array of services that need not
be performed on mine property as long as the services
are related to the mine site and its operations. Joy
Techs., Inc., 11 FMSHRC 303, 307-08 (Mar. 1995)
(Contractor that sold a continuous miner machine to a
mine and performed maintenance services at the mine
site on four occasions was an operator because its work
was more than de minimis and essential to extraction
at the mine); Thompson Electric, Inc., 39 FMSHRC
1228 (June 8, 2017) (ALJ) (Contractor that provided
electric services but was never present at the mine site
for more than 5 consecutive days was an operator
because the contractor was performing maintenance of
mine equipment on mine property); Agapito Assocs.,
Inc., 34 FMSHRC 3465 (Dec. 2012) (ALJ) (Consulting
company that performed services remotely and spent
only 27 days on mine site over a 12-year period and
provided analysis of potential for retreat mining was an
operator because its work influenced the mine’s roof
control plan).
I find that Rain for Rent is an “operator” under the
Act. Rain for Rent was performing ongoing services at
the Natividad Plant that were related to the mine and
its extraction process. See Musser Eng’g, 32 FMSHRC
at 1269; Joy Techs., 17 FMSHRC at 307-08; Agapito
Assocs., Inc., 34 FMSHRC at 3465. Respondent has an
MSHA Mine Contractor Identification Number and
contracted with Lhoist to pump floodwater out of the

App. 28
Natividad Plant’s quarry pit. Jt. Stip. #2; Tr. 42-43.
Lhoist was unable to extract lime from the quarry
while water accumulated in the pit and Rain for Rent’s
services therefore facilitated the extraction process.
Rain for Rent’s presence at the mine was also more
than de minimis. Prior to the inspection at issue Tejeda
drove the cited truck onto mine property on multiple
occasions to install, repair, and replace a water pump
on the mine site. Ex. S-7; Tr. 42-43. On the day of the
citation, Tejeda parked the truck in the office parking
lot with the intent to enter the mine site to perform
those same services. Id. Lhoist’s sign in sheets show
that Tejeda remained at the mine site for nearly two
hours after signing in. Ex. S-7. Rain for Rent therefore
contracted to perform more than de minimis services
directly related to mine operations at the Natividad
Plant at the time of the inspection.
Rain for Rent’s contention that Tejeda was not
“performing services” because he had not yet signed in
and entered the mine site at the time of the citation
unduly narrows the scope of § 3(d). See Agapito Assocs.,
Inc., 34 FMSHRC at 3470 (“‘[T]he totality of the work’
performed upon the pertinent project, not just the work
relating to the underlying citations, ‘must be
considered on the jurisdiction issue”) citing Musser
Eng’g Inc., 32 FMSHRC at 1269. Rain for Rent was
performing pumping services for Lhoist and Tejeda was
an employee of Rain for Rent tasked with performing
those services. Tejeda’s work on behalf of Rain for Rent
entailed entering the Plant office to sign in and make
his presence known on the site. The mere fact that
Tejeda had not yet signed in does not alter the
professional nature of his visit or otherwise diminish

App. 29
Rain for Rent’s status as an operator. See Musser
Eng’g, 32 FMSHRC at 1269 (holding that even services
performed away from mine property are considered to
be performed at a mine if those services “relate to the
mine”). The court declines to limit the jurisdictional
reach of § 3(d) based upon down-to-the-minute actions
of contractor employees on mine property when the
purpose of their presence is to perform services directly
related to the extraction process.
Rain for Rent’s claim that the Secretary’s
interpretation would improperly subject contractor
vehicles on mine property for purely personal reasons
to liability under the Act is unfounded and irrelevant
to the facts surrounding the alleged violation. Resp. Br.
at 7. Tejeda’s truck was a business vehicle and Basich
took clear and reasonable investigatory steps to
reasonably conclude that the truck was at the mine on
behalf of Rain for Rent and that he was therefore
authorized to inspect it. Tr. 31-35, 73, 92. He credibly
testified that the truck had a “Rain for Rent” decal and
a Department of Transportation Number. Tr. 31-35.
Basich observed Tejeda exit the truck and enter the
mine office, and concluded that Tejeda intended to
enter the extraction site. Id.
Accordingly, I find that MSHA has jurisdiction over
Rain for Rent’s employee and truck.
B. Fourth Amendment Considerations
Inspector Basich’s search of Respondent’s truck in
Tejeda’s absence complied with the Act’s regular and
certain inspection procedures provided by § 103(a) and
approved by the Supreme Court.

App. 30
The Supreme Court has held that the general
inspection program of warantless inspections
authorized by § 103(a) of the Mine Act does not violate
the Fourth Amendment. Donovan v. Dewey, 452 U.S.
594, 605 (1981). The dangerous nature of mining and
ease with which health or safety hazards can be
concealed upon advance notice of an inspection indicate
that a warrant requirement would significantly
frustrate the purposes of the Act. Id. at 603. The Court
found that in light of these factors, the Mine Act’s
warrantless inspection program was a constitutionally
adequate substitute for the Fourth Amendment’s
warrant requirement because it notified operators of
regular and frequent searches, outlined what health
and safety standards must be met to comply with the
Act, curtailed the extent of government searches, and
prohibited forcible entry by requiring the Secretary to
file a civil action when denied entry onto a mining
facility. Id. at 605. All mine owners and operators
should thus be aware and even expect continuous and
frequent inspections without a warrant or probable
cause. Id.
The Commission thus held that a deprivation of
§ 103(f) walkaround rights during an inspection does
not violate the regular and certain inspection procedure
provided for by the Mine Act in violation of the Fourth
Amendment because no advance notice is required to
conduct an inspection. SCP Investments, LLC (“SCP I”),
31 FMSHRC 821, 837 (Aug. 2009) (holding that the
failure of an MSHA inspector to permit a
representative of the operator to accompany him on an
inspection “does not curtail the inspector’s right to
enter and inspect the mine”); see also Big Ridge, Inc.,
36 FMSHRC 1677, 1725-26 (June 2014) (ALJ); DJB

App. 31
Welding Corp., 32 FMSHRC 728, 731, 32 (June 2010)
(ALJ). Section 103(a) provides MSHA Inspectors with
a right of entry to, through, or upon any coal or other
mine for the purpose of conducting an inspection
without giving advance notice, and includes the “the
right to use any investigatory technique reasonably
related to the discovery of violations, so long as it is
employed with reasonable limits and in a reasonable
manner.” DJB Welding Corp., 32 FMSHRC at 731-32.
In DJB Welding, the court held that an MSHA
Inspector’s entry into a contractor’s welding truck
without notice or permission was reasonable because
the truck was a work vehicle that could present
hazardous conditions on the mine site. Id. The search
was thus an acceptable investigatory technique that
was reasonably related to enforcement of the Act. Id.
Much like the welding truck in DJB Welding,
Inspector Basich’s search of the truck was part of a
routine inspection conducted at Natividad plant. The
truck was a work vehicle located on mine property and
owned by a contractor performing work on the mine
site, and could have presented hazardous conditions on
the site. Section 103(a) thus granted Inspector Basich
the right to enter the truck to inspect for potential
violations without providing advanced notice to the
driver or waiting for him to return to the vehicle. Rain
for Rent is an MSHA-registered contractor and has
been subject to MSHA inspections in the past; it should
have a reasonable expectation that regular inspections
of its equipment could occur. Dewey, 452 U.S. at 603; cf.
Big Ridge, Inc., 36 FMSHRC 1677, 1726 (June 2014)
(ALJ).

App. 32
Furthermore, Basich’s decision to open the door was
reasonably related to determining whether Rain for
Rent violated § 56.14207 of the Act. Basich testified
that he noticed the Rain for Rent truck rock back and
forth in a manner that suggested the parking brake
was not set. Tr. 33-35. He opened the door in
furtherance of this investigation because he could not
observe the parking brake through the window or in
any other manner. Tr. 32-33. This investigatory
technique was reasonable and necessary to determine
whether the truck presented a hazardous condition.
There was nothing irregular or uncertain about
Inspector Basich’s inspection of the truck that would
run afoul of the Supreme Court’s decision in Dewey,
require a warrant, or otherwise violate Rain for Rent’s
Fourth Amendment rights.
I reject Respondent’s argument that Inspector
Basich’s search deprived Respondent of its claimed
right to refuse an inspection based on jurisdictional
grounds pursuant to § 108(a)(1)(D).6 Section
108(a)(1)(D) does not expressly confer operators the
right to refuse an inspection but prohibits forcible entry
and requires that the Secretary file a civil action in

6

Section 108(a)(1)(D) states in relevant part:
The Secretary may institute a civil action for relief ( including
a permanent or temporary injunction, restraining order, or any
other appropriate order in the district court of the United
States for the district in which a coal or other mine is located
or in which the operator of such mine has his principle office,
whenever such operator or his agent . . . refuses to permit the
inspection of a coal or other mine. . . .”

30 U.S.C. § 818(f).

App. 33
federal court when a mine owner refuses entry onto a
mine site or to mine equipment. See Dewey, 452 U.S. at
604. The prohibition of forcible entry is not necessarily
the same as the granted right to deny an inspection.
That the Act authorizes the Secretary to issue a
citation to any operator that refuses or interferes with
an inspection indicates that MSHA ‘s right of entry
under §103(a) is to be construed broadly and that an
operator’s refusal or interference with an MSHA
inspection is forbidden and a “dereliction of [operators’]
duty under the Act.” Topper Coal Co., 17 FMSHRC 945,
948 (June 1995) (ALJ) citing Waukesha Lime & Stone
Co., 3 FMSHRC 1708 (July 1981).
Nor does the language of § 103(f) suggest that
walkaround rights entail an operator’s right to deny
entry. That provision requires that an Inspector give an
operator the opportunity to accompany an inspection
for the purpose of “aiding such inspection and to
participate in pre- or post-inspection conferences held
at the mine.” 30 U.S.C. § 813(f). Thus, walkaround
rights by their very definition entail participation in an
inspection, not refusal. Cf. SCP I, 31, FMSHRC at 832
(“There is nothing in either section 103(f) or the
remainder of the Mine Act that indicates than an
operator would have the extraordinary power to
essentially nullify an inspection by refusing to
participate in it”) (emphasis added).
Respondent’s interpretation would also curtail the
Secretary’s right of entry by requiring inspectors to
provide notice to operators and contractors before each
inspection in order to allow them the opportunity to
refuse entry. SCP I, 31 FMSHRC at 837, 842 (“There is
no language in section 103(a) that makes the

App. 34
inspector’s right to enter the mine, or to conduct an
inspection and cite conditions that violate mandatory
standards, contingent upon . . . compliance with . . .
section 103(f)”). Such a requirement is contrary to the
language in §103(a) prohibiting advance notice and
would frustrate the objectives of the Act by affording
operators the opportunity to address perceived safety
violations before allowing entry. See Dewey, 452 U.S. at
603. To grant all operators subject to a Mine Act
inspection the right to refuse entry would subjugate the
§ 103(a) inspection program to the operator’s perceived
right to deny inspections and require advance notice be
provided to operators to the detriment of the Mine Act’s
enforcement goals.
As a result, Respondent’s interpretation would
essentially render any violation of § 103(f) walkaround
rights a per se violation of the Fourth Amendment and
nullify otherwise valid enforcement actions in
contravention of Commission precedent and § 103(f)
itself. 30 U.S.C. § 813(f) (“Compliance with this
subsection shall not be a jurisdictional prerequisite to
the enforcement of any provision of this chapter”). As
noted above, the Commission and its judges have
consistently held that even the arbitrary denial of
§ 103(f) walkaround rights is not a violation of the
Fourth Amendment’s protections against warrantless
searches. See SCP I, 31 FMSHRC at 841-842 (opn. of
Comm’r Jordan); Big Ridge, Inc., 36 FMSHRC at
1725-26; DJB Welding, 32 FMSHRC at 731-32. I
decline to limit the Act’s constitutionally approved
general inspection program in such a drastic manner.
Accordingly, the inspection at issue did not violate
Rain for Rent’s Fourth Amendment Rights.

App. 35
C. Section 103(f) Walkaround Rights
I next turn to whether Inspector Basich violated
§ 103(f) when he began his inspection of the truck in
Tejeda’s absence. Section 103(f) states in relevant part:
Subject to regulations issued by the Secretary, a
representative of the operator and a
representative authorized by his miners shall be
given an opportunity to accompany the
Secretary or his authorized representative
during the physical inspection of any coal or
other mine made pursuant to the provisions of
subsection (a) of this section, for the purpose of
aiding such inspection and to participate in preor post-inspection conferences held at the mine
. . . Compliance with this subsection shall not be
a jurisdictional prerequisite to the enforcement
of any provision of this chapter.
30 U.S.C. § 813(f).
Section 103(f) is a qualified right and the
Commission has recognized a crucial substantive
difference between the absence of walkaround
participation that is not intended to vitiate any
citations and penalties, and the unauthorized denial of
such walkaround rights. SCP Invs., LLC (“SCP I”), 31
FMSHRC 821, 831-32, (Aug. 2009) (Inspector
arbitrarily denied operator’s walkaround rights when
he refused to allow the mine owner onto the mine site
because he had not received new miner training); Big
Ridge, Inc., 36 FMSHRC 1677 (June 2014) (ALJ)
(Inspector arbitrarily denied operator’s walkaround
rights because he did not permit mine representative
to call for additional representatives to accompany

App. 36
three different teams performing an impact inspection
in different areas). The denial of walkaround rights in
itself is not sufficient to merit vacatur. SCP I, 31
FMSHRC at 834. Commission judges must determine
(1) whether the operator’s walkaround rights were
denied arbitrarily and (2) the effect of that denial on
the operator’s case to determine the proper remedy.
SCP I, 31 FMSHRC at 821, 827, 829, 830-31; see also
DJB Welding, 32 FMSHRC at 734.
In SCP I, the Commission found that the inspector
arbitrarily denied the mine owner his walkaround
rights but remanded the case to permit the Judge to
determine the effect of a deprivation of walkaround
rights on the operator’s ability to present its defense.
SCP I, 31 FMSHRC at 822. Two members of the
Commission suggested that the second step of the
analysis should entail an exclusionary hearing to
determine what prejudice, if any, resulted from the
violation of walkaround rights and exclude evidence
accordingly. Id. at 822, 834. One Commissioner
suggested that the Judge retained discretion at hearing
to determine the proper civil penalty with the
consideration that a violation of walkaround rights
may have affected the mine’s ability to present
evidence relevant to its case. Id. at 839-40. The fourth
and final Commissioner found that the exclusion of the
operator from the inspection had no effect on the trial
of the case. Id. at 842-43.
Consequently, subsequent ALJ decisions have
diverged on whether the deprivation of an operator’s
walkaround rights may merit vacatur or necessarily
precludes it in favor of applying the exclusionary rule.
See SCP Invs., LLC (“SCP II”), 32 FMSHRC 119, 128-

App. 37
29 (Jan. 2010) (ALJ) (holding that a violation of § 103(f)
rights is per se prejudicial and vacating citations based
upon improper denial of walkaround rights “on due
process, abuse of discretion and/or prejudice grounds);
DJB Welding, 32 FMSHRC at 734-36 (holding that an
operator’s abuse of discretion in denying walkaround
rights provides a sufficient basis for vacating the
citations); contra Big Ridge Inc., 36 FMSHRC at
1735-36 (holding that the Commission requires a
showing that denial of § 103(f) walkaround rights
actually prejudiced the preparation or presentation of
operator’s defense and applying the exclusionary rule
accordingly).
I find that Rain for Rent was not arbitrarily denied
the opportunity to exercise its walkaround rights.
Section § 103(f) requires that operators be given the
opportunity to accompany an inspector during the
inspection, and Tejeda was given that opportunity upon
his return. 30 U.S.C. § 813(f). Mr. Tejeda returned to
the truck a few minutes into the inspection while
Basich was still taking photographs of the unset
parking brake. Tr. 35-36. Basich identified himself to
Tejeda as an MSHA inspector, explained his authority
over the vehicle, and explained why he was inspecting
the truck. Id. Tejeda was permitted and able to observe
the violative condition and was present when the
citation was issued and abated. Tr. 35, 95. Tejeda
therefore had sufficient opportunity to view the alleged
violation, open a dialogue with Inspector Basich
regarding the inspection, and offer mitigating
circumstances prior to and after the issuance of the
citation in accordance with § 103(f). Id. I find this
opportunity sufficient under § 103(f).

App. 38
Even assuming arguendo that Inspector Basich
arbitrarily denied Rain for Rent its walkaround rights,
the facts do not merit vacatur or the exclusion of
evidence derived from the search.
Inspector Basich did not abuse his discretion in
beginning the inspection without Tejeda. The
Commission has found an abuse of discretion “when
there is no evidence to support the decision or if the
decision is based on an improper understanding of the
law.” SCP II, 32 FMSHRC at 128-29. As discussed
above, Basich nspection and entry into the truck in
Tejeda’s absence to determine whether it presented
safety hazards was a lawful exercise of his § 103(a)
right of entry. The inspection was well within MSHA’s
authority because it was part of a routine inspection
conducted to enforce the safety and health provisions of
the Act. It was further based upon Inspector Basich’s
reasonable belief that the truck’s back and forth motion
while parked indicated that the brake was not set in
violation of the Act. Basich’s actions were therefore
supported by evidence and based on a proper
understanding of MSHA’s right of entry granted
pursuant to § 103(a) of the Act.
Respondent argues that Basich abused his
discretion because he did not make every reasonable
effort to wait for Tejeda’s return before inspecting the
truck. Resp. Br. at 19. I disagree. Basich took
reasonable steps to discover the violation before
exercising his right of entry when he looked into the
windows. He had no obligation under the Act to wait
for Tejeda’s return to open the truck door. An inspector
has broad discretion on how to approach an inspection,
and an inspector’s decision not to delay an inspection is

App. 39
not a per se abuse of discretion. DJB Welding, 32
FMSHRC at 735. Even if Basich’s decision to conduct
an inspection initially deprived Rain for Rent of its
walkaround rights, he nonetheless had the right to
inspect the truck and gave Tejeda the opportunity to
view the scope of the alleged violation only minutes
later. See SCP I, 31 FMSHRC at 887, 842.
Nor did the hypothetical denial result in actual
prejudice meriting the exclusion of any evidence
derived from the inspection. See Big Ridge, 34
FMSHRC at 1736-37. Actual prejudice occurs when an
operator can show that the denial of the walkaround
rights resulted in its inability to observe the condition
as cited in order to prepare or present its defense on
the merits before the Commission. Id. (citations
omitted). Tejeda returned to the truck while the
inspection was ongoing and the violative condition still
existed. Tr. 35-36, 95. He observed the violative
condition unchanged ftom when Inspector Basich first
opened the door and was present when the citation was
abated. Respondent does not identify, and the court
does not conceive of any procedural, jurisdictional, or
substantive challenges that were lost or adversely
affected because Tejeda was not present at the precise
moment Basich opened the door to the truck. Tejeda’s
short absence therefore did not actually prejudice Rain
for Rent’s ability to argue its case before this court.
For the reasons explained above, I find that Rain for
Rent was not arbitrarily denied an opportunity to
accompany Inspector Basich on his search of the truck.

App. 40
D. Citation No. 8785566
Rain for Rent also challenges the fact of violation,
gravity, and negligence designations of the citation.
Resp. Rep. at 2.
The Violation
Inspector Basich issued Citation No. 8785566 for a
violation of 30 C.F.R. § 56.14207. That standard
provides that “[m]obile equipment shall not be left
unattended unless the controls are placed in the park
position and the parking brake, if provided, is set.
When parked on a grade, the wheels or tracks of mobile
equipment shall be either chocked or turned into a
bank.” 30 C.P.R. § 56.14207.
The Secretary has proven that Rain for Rent
violated the standard. The truck was “mobile
equipment” as defined by the regulation. Cortez Gold
Mines, 16 FMSHRC 148, 156 (Jan. 1994) (ALJ Morris)
(“Mobile equipment” includes F-150 pickup truck). Mr.
Tejeda parked the truck and did not set the parking
brake before leaving the truck to enter the mine office.
Tr. 38. Inspector Basich provided photographs clearly
indicating that the parking brake was not set when the
truck was parked and left unattended. Ex. S-5.
Respondent contends that the vehicle was not
unattended because the driver was ten yards away and
could see the vehicle through the Plant’s office
windows. Resp. Br. at 12. This argument fails.
Commission precedent has found vehicles to be
“unattended” for the purposes of section 56.14207 when
a miner is not behind the wheel of the vehicle and
cannot control the mobile equipment. See Blanchard
Machinery Co., 38 FMSHRC 1786, 1794 (July 2016)

App. 41
(ALJ) (deferring to the Secretary’s reasonable
interpretation); Knife River Constr., 36 FMSHRC 2176,
2181 (Aug. 2014) (ALJ). Here, there is no question that
Mr. Tejeda could not control the truck while in the
mine office.
Accordingly, I affirm the violation of section
56.14207.
Negligence
Under the Mine Act, operators are held to a high
standard of care, and “must be on the alert for
conditions and practices in the mine that affect the
safety or health of miners and to take steps necessary
to correct or prevent hazardous conditions or practices.”
30 C.F.R. § 100.3(d). The Mine Act defines reckless
disregard as conduct which exhibits the absence of the
slightest degree of care, high negligence as actual or
constructive knowledge of the violative condition
without mitigating circumstances; moderate negligence
as actual or constructive knowledge. of the violative
condition with mitigating circumstances; and low
negligence as actual or constructive knowledge of the
violative condition with considerable mitigating
circumstances. 30 CFR § 100.3: Table X.
The Commission and its judges are not bound to
apply the part 100 regulations that govern MSHA’s
determinations addressing the proposal of civil
penalties. Newtown Energy, Inc., 38 FMSHRC 2033,
2048 (Aug. 2016), citing Brody Mining, LLC, 37
FMSHRC 1687, 1701-03 (Aug. 2015). The Commission
instead employs a traditional negligence analysis,
assessing negligence based on whether an operator
failed to meet the requisite standard of care. Brody, 31

App. 42
FMSHRC at 1702. In doing so the Commission
considers what actions a reasonably prudent person
familiar with the mining industry, the relevant facts,
and the protective purpose of the regulation, would
have taken under the same circumstances. Id.
Commission judges are thus not limited to an
evaluation of mitigating circumstances but may instead
consider the totality of the circumstances holistically.”
Id.; see also Mach Mining, 809 F.3d 1259, 1264 (D.C.
Cir. 2016).
I find Rain for Rent to be moderately negligent.
Inspector Basich testified that Tejeda was unaware
that he violated the standard. Tr. 40. Section 56.14207
is a Rule to Live By Standard. Tr. 35-37. Rain for Rent
is a registered mine contractor and is required to train
its employees on the importance of the Rules to Live By
standards. Id. Although the truck was on level ground
and the violative condition did not pose a serious threat
of injury, Tejeda should have known that failure to set
the parking brake upon parking and exiting the vehicle
constituted a safety violation.
I affirm the moderate negligence designation.
Gravity
The Commission has stated that gravity is to be
approached “holistically,” focusing on factors including
the likelihood of injury, the severity of an injury if it
occurs, and the number of miners potentially affected.
Consol. Penn. Coal Co., 39 FMSHRC 1893, 1902-03
(Oct. 2017); Newtown Energy, Inc., 38 FMSHRC 2033,
2049 (Aug. 2016).
Inspector Basich testified that the violation was
unlikely to result in lost workdays because the truck

App. 43
was parked on level ground with the engine off and the
transmission in the parked position. Tr. 38-39. Even if
the truck were to pop out of the park position, it was
unlikely to roll a significant distance or gain sufficient
speed to cause an injury. Tr. 39. Thus, the worst
possible injury would be bruising or contact with a
miner’s foot. Id. I credit Inspector Basich’s testimony
and affirm the designation.
V. PENALTY
It is well established that Commission
administrative law judges have the authority to assess
civil penalties de novo for violations of the Mine Act.
Sellersburg Stone Company, 5 FMSHRC 287, 291 (Mar.
1983). The Act requires that in assessing civil
monetary penalties, the Commission ALJ shall
consider the six statutory penalty criteria:
(1) the operator’s history of previous violations,
(2) the appropriateness of such penalty to the size of
the business of the operator charged, (3) whether
the operator was negligent, (4) the effect on the
operator’s ability to continue in business, (5) the
gravity of the violation, and (6) the demonstrated
good faith of the person charged in attempting to
achieve rapid compliance after notification of a
violation.
30 U.S.C. 820(I).
Rain for Rent’s violation history is minimal. Ex. S-8.
The Secretary assessed the statutory minimum penalty
and Rain for Rent does not contend that the penalty is
disproportionate to its business or would affect its
ability to continue in business. I discussed the
negligence and gravity of the violation in more detail

App. 44
above. I found the violation to be non-S&S and unlikely
to result in lost workdays and the result of Rain for
Rent’s moderate negligence. Rain for Rent quickly
abated the citation after being notified of its existence.
Jt. Stip. #5, 11; Tr. 95. I assess a penalty of $116.00.
VI. ORDER
The Respondent is hereby ORDERED to pay the
Secretary of Labor the sum of $116.00 within 30 days
of the date of this decision.7
s/_______________________
David P. Simonton
Administrative Law Judge
[Distribution List Omitted in Printing of this Appendix]

7

Payment should be sent to: MINE SAFETY AND HEALTH
ADMINISTRATION, U.S. DEPARTMENT OF LABOR,
PAYMENT OFFICE, P. O. BOX 790390, ST. LOUIS, MO
63179-0390.

App. 45

APPENDIX C
FEDERAL MINE SAFETY AND HEALTH
REVIEW COMMISSION
Docket No. WEST 2017-0377
[Filed October 1, 2018]
___________________________________
SECRETARY OF LABOR, MINE
)
SAFETY AND HEALTH
)
ADMINISTRATION (MSHA)
)
)
v.
)
)
RAIN FOR RENT
)
___________________________________ )
NOTICE
A petition for discretionary review was filed by Rain
for Rent, on September 21, 2018. This petition was filed
pursuant to section 113(d)(2) of the Federal Mine
Safety and Health Act of 1977, 30 U.S.C. § 823(d)(2).
That section provides that review of a decision of an
Administrative Law Judge may be granted upon
specified grounds and upon the affirmative vote of two
Commissioners. Such review is discretionary. 30 U.S.C.
§ 823(d)(2)(A). However, after consideration by the
Commissioners, no two Commissioners voted to grant
the petition or to otherwise order review under 30
U.S.C. § 823(d)(2)(B). Consequently, the decision of
Administrative Law Judge David P. Simonton dated
August 22, 2018, is final as of 40 days after its
issuance. 30 U.S.C. § 823(d)(1). The right to obtain

App. 46
review of Commission decisions in a United States
court of appeals is set forth in 30 U.S.C. § 816(a)(1).

s/______________________________
Colin Dobbins
Supervisory Attorney-Advisor

[Distribution List Omitted in Printing of this Appendix]

